i

FILED
DEC 0 6 2019

I

f

!

ti®~964

i

A

i!

!i

!
!'

i
I

In The
Supreme Court of the United States

!|
!
i

0

PETRICE RICKS, CHASLIE LAWRENCE LEWIS
CHRISTOPHER LAWRENCE, FREDRICK
LAWRENCE, GREGORY LAWRENCE, CHARLIE
LAWRENCE JR., REGINALD LAWRENCE,
SAMUEL LAWRENCE, CHARLETTE LAWRENCE
JONES, CYNTHIA LAWRENCE TOLBERT,
GWENDOLYN LAWRENCE HARRISON, CHERYL
LAWRENCE HUGHES, CAROLYN LAWRENCE,
JANIE LAWRENCE, AND CHARLIE LAWRENCE
Petitioners,

!:
:

!:

V.

V"..

UNIVERSITY HOSPITAL, et al.,
Respondents,
0

On Petition for Writ of Certiorari
To The United States Court of Appeals
For The Eleventh Circuit
0

Writ of Certiorari
0

I

'I

Christopher Lawrence
2974 Jenkins Drive
Snellville, Georgia 30078
(678) 344-4515
CP
P|
i

COMPELLING QUESTIONS
PRESENTED
Whether the decision of the 11th Circuit
1.
violates Petitioners Chaslie Lawrence and Petrice
Ricks rights as beneficiaries to allow and select
enjoining siblings as claimant’s and part of real
parties’ litigants in a negligence civil action under
the interpleader statute; and if so, and because no
medical malpractice and wrongful death claims was
named, Did the Lower Court usage of Georgia State
law was in error abridging Petitioners’ right to full
access and jurisdiction of the Court?
2. The Supreme Court is asked to review minimal
diversity of having at least one party to the suit
citizenship and domicile different from one party to
the citizenry and domicile under the new standards
of constitutionality as oppose to the statutory deter­
minants; if so, can enjoined parties to a federal
lawsuit have the same entitlements of recognition
as a party to the suit? If both conditions are relevant and the parties never apply a state law or tort
claim, are the enjoined parties considered real
persons having an interest in the lawsuit and
claims?
3. Did the 11th Circuit err when they excluded the
domicile and citizenry of diverse litigants Gwen
Lawrence, Gregory Lawrence, Charlie Lawrence Jr.
and Petrice Ricks as enjoined litigants under the
Interpleader statute permissibility pursuant to
Judicial Code § 41 (26)(a)(i)(a), Article III, § 2.
U.S.A Constitution.
i

4. Petitioners request for review is taken
with understanding the High Could elect to
not review and that such review would have
to be for compelling reasons. Petitioners
know other reasons that could move the
Court to consider a case when life and death
are involved under which institutions that
are professionally trained supposed to exer­
cise proper care for citizenry

;
i

i

;
!

ii

LIST OF PARTIES
All parties do not appear in the caption of the
case on the cover page. University Hospital
Respondents not listed and included under et. al,
are listed in the case caption at Appx F to include
staff, Nurses, Physical Assistants, PA, and Doctors.
There also may apply questions involving the
constitutionality under which 28 U.S.C. § 2403(a)
applies to protections under the Fourth and
Fourteenth Amendments. Whereby a class of
litigant, Pro se almost never is accorded due
process and equity of the Court once the litigants
has been identified as proceeding as Pro se; (Appx
B, Pg. 2) and (Appx D, Pg. 6)

!

List of all parties to the proceeding in the court
whose judgment is the subject of this petition is
as follows:
A:
1: United States Court of Appeals for the 11th
Circuit where Circuit Judges TJOFLAT, MARCUS
and ROSENBAUM affirmed the District Court order
upholding Respondents’ dispositive motion that the
Court lacked subject matter jurisdiction (Appx B)

!

2: United States District Court for the Southern
Division of Georgia where Division Article III
District Judge Randal Hall ignored new law for
jurisdiction and allowed a non jurisdictional Court
of Article I Court, Judge Epps to interfere with
Petitioners’ right to discovery by ordering a Stay of
discovery for Respondents in short-circuiting the
case. Thereafter, Judge Hall issued an order
granting Respondents’ dispositive motion of disiii
♦ '

missal from the Court lacked subject matter
jurisdiction. (Appx D) 6
3. United States District Court for the Southern
Division of Georgia where Division Article I Court
Judge Brian Epps wrote two orders impacting the
case. The main essential order was allowing the
Respondents Motion for Extension of Time to
Conduct Rule 26(f) and to stay discovery which is
listed at (Appx E). The other order that was not
included but was written directed Petitioners
enjoined to all sign the Complaint. The involvement
of Judge Epps in this federal case of dispositive
claims were none consensual by all parties there­
fore his involvement was unconstitutional

iv

PETITIONERS’ CORPORATE DISCLOSURE
Petitioners as family members to include daughters
Chaslie Lawrence Lewis, Petrice Ricks, siblings as
Christopher Lawrence, Fredrick Lawrence, Gregory
Charlie Lawrence Jr., Reginald
Lawrence
Lawrence, Samuel Lawrence, Charlette Lawrence
Jones, Cynthia Lawrence Tolbert, Dr. Gwendolyn
Lawrence Harrison, Cheryl Lawrence Hughes,
Carolyn Lawrence, and Parents of Decedent;
Charlie Lawrence Sr. and Janie Ruth Lawrence
aren’t affiliated with any held corporation.
All Petitioners listed herein above are not affiliated
with any publicly held entity.
All Petitioners listed herein above do not have any
parent corporations of affiliation
All Petitioners listed herein above do not own 10%
or more of stock of a party owned by a publicly
entity listed or traded on any final market
Persons that have an interest:
District Judges: Federal Courts acting contrary
to Federal Magistrate Act that assigned federal
cases to Article I courts judges without authoriza­
tion creating intermediate Courts in violation of
U.S. Constitution such judge as Randal Hall
assigning the case Brian K. Epps to establish a
Magistrate Court Order in a Federal Court of
Article III Jurisdiction
Magistrates Judges jurisdiction in federal cases
relevant to Rule 12(b)(6) dispositive affirmatives
such as Brain K. Epps, Justin Anand, Russell
Vineyard, John Larkins III, Janet King, Linda
V

!

Walker, Alan J. Baverman, J. Clay Fuller, Walter
E. Johnson,_Catherine M. Salinas, Article I Court
standing jurisdiction in federal Article III court
cases without consent, evidentiary hearings,
affirmative defenses filed, not recognized under
Article III Constitution. Article I Courts as federal
courts pursuant to 28 U.S.C.1331, 28 U.S.C. §
636(c), 28 U.S.C. § 636 § (b)(1)(A), have limited
jurisdiction conditioned upon the Exception of
dispositive motions.
Attorneys of the Defendants-Respondents,
Kilpatrick Townsend & Stockton LLP
Attn: Joseph H. Huff
Enterprise Mill
1450 Greene Street, Suite 230
Augusta, Georgia 30901
(706) 823 - 4202
11th Circuit Court of Appeals has an interest by
their opinion.

i

vi

i

!

TABLE OF CONTENT
Content
QUESTIONS PRESENTED
LIST OF PARTIES

Page
11
111-v

PETITIONER’S DISCLOSURE

Vl-Vll

TABLE OF CONTENT

V111-1X

INDEX TO APPENDICES
TABLE OF AUTHOJtlES

x
xi - Xll

OPINIONS BELOW

1

JURISDITION

2

CONSTITUTIONAL STATUTORY
PROVISIONS INVOLVED.................

3
i

STATEMENT OF HUES
STATEMENT OF CASE

3-4
5-7

SUMMARY OF ARGUMENT

7-10

ARGUMENT A. UNREPRESENTED
HAVE NO CHANCE.....................

10-12

!

B. PETITIONERS’ COLLECTIVELY HAS
STANDING UNDER FRCP RULE 19...... 12-17
C. THE COURTS’ USAGE OF SUA SPONTE IS
17-18
FLAWED
vii

i

!

TABLE OF CONTENT- Continued
Page

Content

D. TRIAL COURT ALLOWED DOUBLE
STANDARDS............................................. 18-27
E. DISPOSITIVE MOTIONS RESPONSIVE
ARGUMENTS FROM NONMOVANT SUPPOSED
27-29
TO BE ACCEPTED AS TRUE
9 REASONS FOR GRANTING THE WRIT. 29 - 30

i

30 - 31

CONCLUSION,

i
I

viii

INDEX TO APPENDICES
APPENDIX A: 7/10/19 Circuit Judgment

1

APPENDIX B: 7/10/19 Circuit Court Opinion...2 - 4
APPENDIX C: 6/04/18 District Ct Judgment...

5

APPENDIX D: 6/04/18 District Court Order.....6-12
APPENDIX E: 2/14/18 Magistrate’s Order... 13 -15
APPENDIX F: 12/04/17 Petitioners Complaint of
16 - 52
Negligence and Damages

*•

ix

TABLE OF CITATION AND AUTHORITIES
PAGES

CASES

Asuon-Schulte v. Guam Election Comm’n. 469 F.3d
2
1236, 1239 (9th Cir. 2006)
Allen v. Meyer Revnasa. 971 F.2d at 417

2

McCormick v. Aderholt, 293 F.3d 1254, 1257-58
7
(11th Cir. 2002)
Chapman v. AI Transport. 229 F.3d 1012,
1023 (11th Cir.2000) (en banc) (quoting Haves v.
City of Miami. 52 F.3d 918, 921 (11th Cir. 1995))... 9
Daniels v. Twin Oaks Nursins Home. 692 F.2d
10
1321, 1324 (11th Cir. 1983)
Chapman. 229
F.3d at 921)

F.3d

at

1023 (quoting Haves. 52
10

Anderson v. Liberty Lobby. Inc.. All U.S. 242, 251—
52, 106 S.Ct. 2505, 91 L.Ed.2d 202 (1986)....10 - 11
Strawbridse v. Curtiss. 1 U.S.267, 2 L. Ed. 435
14, 28
(1806)
State Farm Fire & Cas. Co. v. Tashire. 86 U.S. 523,
14, 25, 27
530-531 (1967)
Erie Railroad Co. v. Tompkins, 304 U.S. 64 (1938)
12

x

TABLE OF AUTHORITIES - Continued
PAGES

CASES

PTA-FLA. Inc, v. ZTE USA. Inc.. 844 F.3d 1299
21
(11th Cir. 2016)
Zacharia u. Harbor Island Soa Inc., 684 F2d 19.9
21 - 22
(2d Cir. 1982)
Navarro Savings ASSN v. Lee. 446 U.S. 458, 461
24
(1980), [446 U.S. 456, 459]
Barbour v. Haley. 471 F. 3d 1222, 1225 (11th Cir.
29
2006)
Brvant v. Rich. 530 F. 3d 1368, 1377 (11th Cir.
29
2008)

j
\

i
■i

!
!

xi

OTHER CONTROLING AUTHORITIES
2
28 U.S.C.§ 1291....
2
28 U.S.C. § 1254(1)
Article III, §2, U. S. Constitution...................2, 16
2
28 U.S.C. § 1331.........................
2, 18
28 U.S.C. § 1332.........................
2
28 U.S.C. § 1331(a)(1)...............
2
28 U.S.C. § 1331(a)(2)...............
2
28 U.S.C. §§§ 1353, 1397, 2361
Article III Court...2, 3, 6, 7, 14, 16, 17, 21, 25, 31
3, 5
28 U.S.C. § 636(b)(1)(A)
3, 4, 5, 6, 7, 16, 22, 31
Article I Court................
Act 28 U.S.C. § 133........................................ 3, 28
3
Rule 19(1)(B)....................................................
4
Rule 19 Rule 37 Equity..................................
6
Interpleader Act..............................................
6
Federal Interpleader Act 28 U.S.C. § 1335
Federal Interpleader Act 28 U.S.C. § 1397
...1, 23, 25
Federal Interpleader Act 28 U.S.C. § 2361
...1, 23, 25
7, 10, 14, 17, 22
Civil Procedure..............
9
CAFA...............................
11, 12, 13, 19
FRCP Rule 19................
15
FRCP Rule 19(a)...........
15
Rule 26(f)........................
16
Federal Magistrate Act
17
U.S. Constitution..........
19
Class Action Fairness Act, CAFA..............
23
Fed. R. Civ. P.................................................
27
Fed, R. Civ. P. 6(6)(d)...................................
30
28 U.S.C. § 1332(a).......................................
Article III, § 2 of the Constitution........................2

3

42 U.S.C. §1983
xii

OPINIONS BELOW
[X] For cases from federal courts:
The Judgment of the United States Court of
Appeals
11th Circuit at Appendix A to the petition and
Decided on August 8, 2019
The opinion of the United States Court of Appeals
appears at Appendix B to the petition and [X] has
been designated [X] Unpublished and decided on
July 10, 2019
The United States District Court Judgment of the
case on June 4, 2018 at Appendix C and may not
be reported for publication.
The United States District Court decided Order of
the case on June 4, 2018 at Appendix D and may
be reported for publication
The United States Magistrate’s Report, decided
order of the case on February 14, 2017 at
Appendix E and may not been reported for
publication

1

JURISDITION
Supreme Court has jurisdiction pursuant to Article
III, § 2 of the Constitution and 28 U.S.C. § 1254(1).
District Court of Georgia had jurisdiction pursuant
to 28 U.S.C. § 1331 and 28 U.S.C. § 1332 and Eleventh
Circuit Court of Appeals has jurisdiction pursuant
to 28 U.S.C. § 1331(a)(1), 28 U.S.C. § 1331(a)(2), (id
at 1 5 above) 28 U.S.C. § 1291, 28 U.S.C. §§ 1335,
1397, 2361 with emphasis toward
diversity and Federal Interpleader Act.
■*-v\ i v> i w» O '

The Eleventh Circuit jurisdictions were consistent
with Civil Procedure and FRAP Rules in deter­
mining whether jurisdiction existed for Magistrate
Brian K. Epps but disperse when Petitioners
sought review from the same trial Court.
Magistrate Brian K. Epps authority is called into
question surpassing the Constitution delegating
authority of an Article III Court exclusive right to
federal cases as Petitioners’.
Jurisdiction in this case is central where Judge
Epps didn’t write an R&R but affected jurisdiction
by impeding Petitioners’ rights to discovery causing
the district court to not decide from critical
material facts, see Asuon-Schulte v. Guam Election
Comm’n. 469 F.3d 1236, 1239 (9th Cir. 2006). See
also Allen v. Mever Revnasa. 971 F.2d at 417
(holding that “absent consent of all parties,
magistrate judge’s stay order was “beyond his
jurisdiction and was, in essence, a legal nullity”).

2

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
28U.S.C. § 636(b)(1)(A):
This case presents Constitutional issues whereby
an Article I Court’s limited jurisdiction impeded
discovery absent of consent and authority when
dispositive motions are filed as an affirmative
defense. United States Constitution does not
recognize an Article I court in an Article III
jurisdiction under 12(b) action without parties
consent.
Act 28 U.S.C. § 133
This case presents a statutory issue that old versus
new precedent relevant to minimal diversity and
domicile are at issue relating to enjoined parties.
That is; whether or not there exist such a position
of real parties to a case in an interpleader claim
where beneficiaries have the right to allow enjoined
litigants fully recognition as real aggrieved parties
entitled to an apportionment of relief absent of an
objections initially presented by Respondents
STATEMENT OF ISSUES
1. Whether Rule 19(1)(B) establishes situational
equity for Chasile, Petrice, and enjoined family
members parents and siblings?
2. Supreme Court is asked to review the lower
Courts allowance of jurisdiction to Judge Epps’
involvement and determine why Epps didn’t write
an R&R? Did he know his involvement created a
violation 28 U.S.C. § 636(b)(1)(A) due to Respondents

3

!
S

dispositive motion was filed impacting Article I
jurisdiction in federal courts?
3. Children of decedent, Chaslie L. and Petrice R.
included decedent’s parents and siblings as joined
kin is an interested party weren’t objected to by
Respondents. Claiming that the enjoined parties
aren’t real parties in interest does not support Rule
19 or the Equity Rule 37 or Georgia’s equity laws or
interpleader statutes. .
4. The Supreme Court is asked to look into absent of
joining Gwen. Lawrence, Greg. Lawrence, Charlie
Lawrence Jr. adversely affects the Decedent’s
beneficiary’s ability to recover in the federal court.
5. Petitioners ask the Court to apply the new
minimal diversity having only one party required to
be citizen of a different state than Georgia and with
a domicile of a different.
6. The Supreme Court is asked to resolve blood
relatives interest relations where siblings and
parent are connected and used most often in all
arenas as the next of kin creates an apportionment
of interest, if so, joined blood relatives of a family by
parents of the same are entitled interested party
that never loses kin ties.
7. Petitioners ask the Supreme Court to review did
the Trial Court (Appx D; Pg. 6) general analysis of
kin failed to mention real brothers and sisters from
the same parents creating an everlasting interest as
next of kin is a continuum of joint severability

4

STATEMENT OF CASE
Petitioners argue hereinafter referred to as CL;
designated FAMILY MEMBER for the Decedent’s
Estate and on behalf of decedent beneficiaries
Petitioners that are all enjoined parties hereby ask
the Supreme Court review. Because the case
involves the death of CL’s sister, the first death of a
family member of six (6) boys and six (6) girls were
an extreme position to bear of going one day of
speaking to a love one and four days thereafter
notified that decedent had die. Petitioners’ family
union was broken and wants those liable for
negligence conduct accountable.
Petitioners filed their action of negligence contrary
to the Respondent and district Court attempting to
reclassify the claims as “medical malpractice and
wrongful death claim. See first the 11th Circuit
reclassification at (Appx B Pg.3 fl), citing “The
complaint alleged state law claims of medical negligence,
gross negligence, and wrongful death of Daphne Lawrence
Ricks.”). District Court erred version at (Appx D,
Pgs. 6,) “wrongful death, and Appx D, Pg. 10, foot
note 2, are all obfuscation to Petitioner claims at
Appx F, Pg. 22, 15 Medical professional negligence,
Appx F, Pg. 45 H 81 “Gross Negligence” Appx F,
Pg. 48 1189 “Gross Negligence” yet the Courts used
its positions to change Petitioners’ claims so that
they could apply a Georgia law creating a condition
of real party in interest.
Petitioners objected to the Article I Court interfere­
nce with the case progression in violation of Fed. R.
Civ. P. 28 U.S.C. § 636(b)(1)(A), beyond the exception
as stated in the procedure under which Judge Epps
wrote an order impeding Petitioners’ rights for

5

discovery beyond only having an Article III Court
jurisdiction, (Appx E, Pgs. 13 and 14).
Petitioners ask for review on grounds the Circuit
and Article III courts wrote past the Interpleader
Act in allowing Respondents an out of not answering
on the merits of the case disregarding negligence to
provide proper care to decedent. Petitioners advance
further their request on grounds the 11th Circuit’s
Opinion and Trial Court’s order appear to conflict
previous Courts’ recognition of enjoined Petitioners.
The Circuit and District Courts rulings’ in of its own
sought to ignore Petrice Ricks’ domicile in North
Carolina and citizenship status, Dr. Gwen Lawrence
Harrison, Charlie Jr. Lawrence, and Gregory
Lawrence as litigants to the suit for diversity
purposes; and the Courts completely failed to follow
the statutory interpleader act but rather selectively
applied the interpleader Rule beyond 28 U.S.C. §
1335.
The District Court allowed an Article I Court full
range of authority in Article III jurisdiction to write
orders reserved for a proper Court under III
jurisdiction. The affects thereof did trample over
Federal Magistrate Act restrictions in dispositive
cases as the current. Article I Court involvement did
create a dilemma in of its own judicial confusion
where the Trial Court Judge ignored Article I
Court’s limited jurisdiction in dispositive cases and
took up jurisdiction; but on the hand ignored the
laws to abate jurisdiction when it didn’t work to
preside over the current case that Respondent raised
attempting to escape by raising jurisdictional issues.

6

Respondents’ motion to Stay granted by an inferior
Article I Court did usurp or surrogate jurisdiction of
an Article III Court that now refused jurisdiction out
of conveniences as a process tool contrary to allowing
jurisdiction of an Article I Court involvement; but
uses this same jurisdictional tool incorrectly to now
claim the Court lacks subject matter jurisdiction is
dubious extension of Civil Procedure; the Bible for
Judiciary where the forgoing is framed in double
standards against the objectivity of the Court and
against Petitioners. The Court shouldn’t in fairness
be allowed to have it both ways in ignoring what the
Court claims in (Appx D, Pg. 8, ^2) versus the
holding regarding McCormick v. Aderholt, 293 F.3d
1254, 1257-58 (11th Cir. 2002) that (“Citizenship is
equivalent to 'domicile' for the purpose s of diversity
jurisdiction.”) But turning to menial assertions that
Petitioners failed, or statement of only wording to
claims that “Even if Petrice Ricks is a North
Carolina citizen, however Petitioners do not contest
that Petitioners Chaslie Lawrence Lewis is a Georg­
ia citizen is exactly minimal diversity under the new
Constitutionality of minimal diversity. How- ever,
rather the Circuit has an option to follow an old
statute looking directional to old laws of complete
diversity versus the new laws supporting; having one
adverse claimant of diverse citizenship from another
state meeting the minimal standard
SUMMARY OF ARGUMENT
The 11th Circuit and District Court both err in
constitutionality of applying interpleader statute
relevant to enjoined litigants regardless of kin or not
caries the same values of foreign state, natural
7

i

citizens having different domicile than Defendants
as litigant Gwen, Gregory, and Charlie Lawrence
showing at least three additional parties and
Decedent’s daughter Petrice Ricks totaling 4 diverse
individuals
Both Courts failed to recognize the new constitutionnality of well-settled modern application of having a
minimal of at least one litigant plus enjoined
litigants that are citizens and domiciles different
from Respondents in Georgia.
The Trial Court and Respondents in error only
recognized Lewis and Ricks as real parties are
completely frost when central facts are Respondents
made no objections to Ricks and Lewis joining other
direct siblings and parents family members as next
of kin that met the thresholds requirements of
having at least one or more party having different
domiciles, citizenship, property and residence
outside of the State of Georgia. It was Ricks and
Lewis right as beneficiary of decedent to allow kin by
sibling and parents to be included a as parties to the
case instead of 15 individuals lodging separate
lawsuits.
Petitioners are all inclusive parties enjoined under
Rule 19 is key as next of kin having a unique
position of severability as sibling from same parents.
The other critical central point is that Respondents
never moved to object enjoining members. (1)
Question does not filing an objection to enjoined
parties creates real parties to the case. The
Respondents only approached the case from technic­
al necessities that only the real party in interest is

8

Petrice and Chaslie. The Supreme Court Clerks and
justices have before them the trial appeals and
Respondents failing to raise one objection to the
content and merit of Petitioners’ claims under which
should be taken into consideration to balance justice
and merit of over the Court pounding a double
standard of process jurisdiction
In making this determination to follow the evidence
presented together with Petitioners’ material facts
that have gone undisputed by Respondents, the 11th
Circuit; followed by the District misstating the case
to include Petitioner filed claims of medical
malpractice and CAFA claims which is simply not
the case, the Supreme Court could establish clear
instruction in applying constitutionality balancing
process over merit standards.
The Circuit Court failed to review Petitioner proper
claims of negligence that went undisputed relevant
to enjoining other litigants under which makes each
party named domicile and citizenry outside the state
of Georgia significant to establish minimal diverse
jurisdiction reasonable inferences in favor of the
party opposing the dispositive affirmative defense.
See: Chapman v. AI Transport. 229 F.3d 1012,
1023 (11th Cir.2000) (en banc) (quoting Haves v. City
of Miami. 52 F.3d 918, 921 (11th Cir.1995)).
“[A]n inference is not reasonable if it is only
a guess or a possibility, for such an inference is not
based on the evidence but is pure conjecture and
speculation.” Daniels v. Twin Oaks Nursins Home,
692 F.2d 1321, 1324 (11th Cir.1983).

9

Here in the forgoing case the 11th Circuit didn’t
even recognized Gwen Lawrence, Gregory Lawrence
and Charlie Lawrence as litigants by the beneficiar­
ies of Decedent, Daphne Lawrence, enjoining their
names as party to the negligence claims. This was
omitted to cause Petitioners to not meet the
threshold of minimal diversity and to use an
antiquated position of claiming complete diversity is
required.
ARGUMENT
A. UNREPRESENTED HAVE NO CHANCE
Petitioners argues whether or not they can rely on
the same “Judicial Bible,” Civil Procedure doctrine
relevant to minimal diversity being one party
adverse concept toward meeting the diversity
standard unto the new Constitutionality of the Rule.
Petitioner affirms they met the standards in both
way of having 4 parties diverse as pointed out herein
above or having one party minimally diverse.

i

i

In fact, Petitioners argue this element is essential
for justice that Respondents seek to escape by
University Hospital presenting no evidence that
their 'professionals did or did not cause Decedents’
demise; but that this cause is local and therefore not
federal jurisdiction is incorrectly premised. United
States Supreme Court held in Chapman, 229 F.3d at
1023 (quoting Haves. 52 F.3d at 921);see also Anderson
v. Liberty Lobby. Inc.. All U.S. 242, 251-52, 106 S.Ct.
2505 ,91 L.Ed.2d 202 (1986) (stating that the
determinative question is “whether the evidence
presents a sufficient disagreement to require sub­
mission to a jury or whether it is so one-sided that

10

one party must prevail as a matter of law”). The
straight forward conclusion is why didn’t the
Respondents file any defenses to Petitioners’
material evidence I Appx F, but rather used an out
of 'date statute that once required “complete
diversity?” Why the Courts refused to accept no
objections were lodge by Respondents relevant to
enjoined litigants?
Petitioners’ advances further the lower courts pre­
senting Petitioners’ claims were disingenuous
moderately stating that “Petitioners only allege in
their amended complaint the residence of a handful
of the Petitioners’ and their address was to misapply
enjoined litigants that were citizens of a different
state and minimizing Petrice Ricks, Gwen Lawrence
Harrison, Greg. Lawrence and Charlie Jr. Lawrence
do in fact meet the standards of diversity by their
representing two or more citizenry and domiciles are
in different states other than Georgia. Instead of
construing all reasonable inferences towards the
non-movant when there arises a question of fact
supported by Petitioners’ evidence that at least one
party is does not have the same citizenship as
Respondents, Judge Randal Hall defaced Petitioners
on Pg. 4 compromising FRCP under Rule 19 by
incorrectly allowing judicial difference.
Respondents and Court conflated a recalcitrant
conclusion that Petitioners attested Chaslie and
Petrice domiciles were in Augusta is contrary to
undisputed evidence otherwise showing Petrice
permanent residency and citizenship is in North
verbatim Carolina and was at the time of filing
despite visiting both Atlanta and Augusta Georgia
during the time of her mother’s death. The Court
11

and Respondents alleged because the initial
complaint document at Appx F. Pg. 17 “(id. t 2)
that it established both Petrice and Chaslie s
citizenship and domiciles. The Court ignored Appx F.
Pg. 18 f 5 (“Subject matter jurisdiction to the federal
court is impacted by Petitioners ’ domiciles while
Chaslie and Petrice are primary in Augusta Georgia
and Decedent’s siblings are located in other states”
was conflated and mislead to not documenting
Petitioners’ claims. Once more, the Court conflated
wording resident from the record and knew the
Circuit would call it as the District wrote in
shielding that permanent domicile for Petrice and
Chaslie was not declared just because they “visit or
is in Atlanta or Augusta, Georgia
B. PETITIONERS’ COLLECTIVELY HAS
STANDING UNDER FDCP RULE 19
Petitioners argues under FRCP 19 certain elements
properly allows a fair Court to consider equity of
joining parties in the absence of a person as in this
case; Decedent Daphne Lawrence. Despite the
Court’s rulings, Petitioners love one was death was
the results of negligence. Georgia federal Courts of
equity and reasonableness failed to consider all inte­
rested parties claiming interest in the outcome
joined under the Rule 19 would be proper without
any objections made and the beneficiary enjoined
such parties.
Rule 19 premises a linear function in not aborting
the case when joinder is necessary when Petitioners’
as Chaslie Lawrence applied a lawful application
severability of recovery and liability that affected the
entire Lawrence’s family. However, if the Courts use
!

12

terms as “only stated”, (Appx D, Pg. 9) phraseology
misrepresentations that speculates only a few
litigants were named and that both Chaslie Lewis
and her sister Petrice are locals which is a complete
misrepresentation toward not computing with the
objectivity of fairness of the judiciary. For this
reasons among others review is required.
Plain language of the current standards relevant to
diversity of citizenship moves the determination of
diversity of citizenship towards constitutional grants
under which Judge Hall failed to even discuss or
approach. The same is applicable to the joined
parties rights included under Rule 19 that Counsel
for the Respondents failed to lodge any objections.
Even further to consider, the case met the minimal
diversity standards but for not Judge Hall and
Epps appearing to use a “narrow-minded” conscience
of accepting Respondents claims that only purports
to the statutory alkalinity of the minimal diversity
and not the Constitutional base. It appears further
that Hall’s misconception of the new constitutional­
ity for minimal diversity is stuck in statutory rudi­
ments.
Both Courts misfired relevant to the Constitutional
application of minimal diversity under Hall’s and
Circuit Judges persuasion. Both the Courts and
Respondents excluded current Constitution rights
and only looked directional toward the governance of
statutory citations from Strawbridse v. Curtiss case,
(citation omitted emphasis toward an old outlived
statute of requiring complete diversity) However,
State Farm Fire & Cas. Co. v. Tashire, 86 U.S. 523,
530-531 (1967) Tashire case which is later than

13

!

Strawbridge turned the page to freshness of minimal
diversity for current application. The new grants of
subject matter jurisdiction are purely based upon
“minimal diversity.” That is, of course; the newness
of the minimal diversity concludes on Article III
court’s posing no impedance as a proper district
court.
Petitioners argue Civil Procedure is the doctrine that
Federal Courts are supposed to follow in governing
law objectively. However, it appears in this case, the
very procedure is not followed to open outside of
procedure, stare desisis, and conditions precedent to
break enjoined litigants domiciled and citizenry to
produce a version of the Courts’ jurisprudence. In
Erie Railroad Co. v. Tompkins, 304 U.S. 64 (1938)
Civil Procedure documents that diversity of juris­
diction as less the issue rather than addressing
substantive law and as in this case the merit of
negligence.
Petitioners did initiate their cause of action for
negligence only and not as misstated by the trial
Court intentionally on Appx-D, Pg. 1, alleging
that medical malpractice” was indeed a complete
pretext in the record at also (Appx-B-Pg. 2, ^fl) No
claims were identified as liabilities under medical
malpractice
Petitioners argues the same Court forwarded a
notice requiring all parties listed to the suit as
undisputed enjoined members to sign the complaint
in order to be a part of the lawsuit. The fact that the
Court recognized the enjoined kin at the beginning of

14

!

the complaint is within the context and meaning of
FRCP Rule 19(a). This issue is undisputed.

>

When the Court noted that all parties must signed
the initial complaint, the Court surrendered any
further claims against diversity jurisdiction because
it had before it Petitioners’ (para 2, Appx F), that
subject matter jurisdiction to the federal court is
impacted by Dr. Gwendolyn Lawrence Harrison
currently domicile in California, Gregory Lawrence
in Arizona, Charlie Junior Lawrence in North
Carolina creating a jurisdictional diversity at
minimal standing, Appx F. Since the central issue
is couched in Jurisdiction, the Supreme Court must
determine at any time in the course of the case
jurisdiction was implied or accepted by the orders
written.
Petitioners’ amended complaint is premised on
minimal diversity by Petitioners domiciles having
Petrice Ricks establishing the first prong
requirement. Judge Hall failed with the Circuit
refusing to consider Petrice establishes one party
difference of domicile and citizenry is in North
Carolina at the initial filing. A common interest is
established in decedent, Daphne Lawrence death
was proximate the victim of gross negligence of
treatment allowing decedent to go days without
notice of an acute Urinary tract infection; Appx F.
The results of a diabetic decedent having an
infection untreated compromised decedent’s Kidneys
casing the medications finally given four days
thereafter to concentrate and her system becoming
sepsis shock. Facts to record in Appx F that have
not been disputed are that during Decedent’s second

;

I

I

!

15

visit to Respondent’s hospital, her blood pressure
was low which should have been alarming to an
untreated diabetic with an acute UTI. Still Decedent
was release and documentation indicated that the
Nurse indicated on Daphne’ release form NORMAL;
See Appx F. Pg. 49. 193. Thus far Respondents
has not disputed this material of fact on merits.
The trial Court attempted to extend past the
fundamental meaning of the enjoined parties by
claiming that Petitioners are citizens of the State of
Georgia and have no complete diversity is not forth­
right.
Because the case was unlawfully impeded by an
Article I Judge, Petitioners were not given due
process of Rule 26, and any subsequent rules of due
process for discovery. The Magistrate Judge that
isn’t recognized both Constitutionally but given
limited solitude under a Federal Magistrate Act, or
by FRCP to become involved in dispositive cases did
violate the rule exception and wrote an illegal order,
granting Respondents’ Motion to stay abridged
Petitioners’ rights of fairness and to obtained further
central data relevant to Respondents’ policies
practices procedures The involvement of the Article I
Court in an Article III jurisdiction wars against
Petitioners rights, U.S. Constitution, Jurisdiction
constraints and is clear abuse of the office of the
judiciary allowed by lower Courts.

16

C. THE COURT’S USAGE OF SUA SPONTE IS
FLAWED
When a setting Judge obfuscate the governing
standard formed under Civil Procedure, relevant to
minimal diversity, his authority is compromised.
The Article III judge’s Oath against objectivity of the
Court is doing justice. Not only does the Court order
undermines fairness, but it aligns totally with the
Respondents’ position under which failed to object to
Chaslie and Petrice beneficiary entitlements of join­
ing other Petitioners directly related to their mother,
parents and siblings.
The Court used a non-procedural inference to
claim a “real party in interest defense to ignore that
minimal diversity exists from parties listed in the
suit. Had Respondents raised the argument that
they object to enjoining of other Petitioners,
(Amended Complaint, Pg. 1, (“Petitioners’ Chaslie
Lewis and Petrice Ricks enjoined the above listed
parties of interest in this cause of action who were
adversely affected by the untimely and unnecessary
loss of their family members; By way of the signed
foregoing complaint, above Petitioners and enjoined
family”). Claiming that Petitioners other than
Chaslie and Petrice are the only real parties is not a
recognized objection in a negligence claim and gross
negligence claim that Respondents failed to dispute,
maiming real parties anomalies are done to break
subject matter jurisdiction beyond Civil Procedure
and minimal diversity of Petrice Ricks, Gwen, Greg,
Charlie Lawrence standing as citizens and domicile
of a different state.

17

D. TRIAL COURT ALLOWED DOUBLE
STANDARDS

i

I
!

Petitioners objected to the trial Court order (Appx D)
attempting to apply a standard on Pg. 2 relating to
why the Court is lacking jurisdiction. Petitioners in
fact by enjoining Dr. Gwen Lawrence Harrison, Greg
Lawrence, Charlie Lawrence, and Petrice Ricks
domicile and citizenship of North Carolina are all
grounds meeting and exceeding the minimal
standards. Petitioners and the Court recognized the
claims of diversity Jurisdiction pursuant to 28
U.S.C. § 1332, complete diversity is in question.
Now, to manipulate an outcome, the District Court
(Appx D) on Pg., 2 ignored the minimal standard
requiring only two parties to be citizens and domicile
different from Respondents and in a different state
diverse from Respondents. When the Court had
above the two parties and that Petrice income taxes,
or documents showed her domicile was in North
Carolina, the Court thereafter claimed although
these facts were present and central, still claimed
that no complete diversity was present is a complete
untruth as supported by the enjoined parties with
Petrice domicile of North Carolina.
The Respondents and Courts expressed “even if Ms.
Ricks were a citizen of North Carolina, Petitioners
have not disputed that Ms. Lewis is a Georgia
resident. The same analogy was adopted by the
District Judge by claiming in the order (Appx D) at
note l“Petitioners haven’t alleged the Class Action
Fairness Act” is simply imprudent. Nothing is ment­
ioned from the standard of enjoining Petitioners of
diversity domiciles as applicable to at least two

18

3

parties being diverse to construe the minimal
diversity standards. Accordingly, only one adverse
nartv is renuired under the new standard of minimal
diversity. Petitioners cannot find no procedure or
codified law that disassociate or re-classify enjoined
parties to a suit as non-relevant and non -real party
in interest once Rule 19 been applied and no
objections were made. Moreover, Petitioners cannot
find no laws that disassociate Petitioners from being
real if the Petitioners of real status make by
enjoining other parties to a cause of action as
beneficiaries. Besides this Court directed Petitioners
to have all parties sign the lawsuit in order to
become parties to the suit in a Pleading.
The Petitioners objected to the trial and Appeals
Courts stressing Petitioners, although is diverse; are
not complete diverse, Id. at Pgs. 2 and 3. Petitioners
are not playing trickery and using word phraseology.
Petitioners alleged diversity and domicile by state of
residency creates the citizenship status of that state.
The Court in total conflict confirmed Petitioners’
statement. The District Court on (Appx D, Pg.8, |2)
validated further Petitioners’ claims of diversity by
documenting “(“Citizenship is equivalent to domicile
for the purposes of diversity jurisdiction”)”
The Court went further to state “A person’s domicile
is the place of his true, fixed, and permanent home
and principal establishment, and to which he has the
intention of returning whenever he is absent
therefrom.” Why isn’t this statement relevant to
Petrice Ricks as Petitioners that announced “Subject
matter Jurisdiction to the federal court is impacted
by Petitioners’ domiciles while Chaslie’s and Petrice

19

i
I

r

are primarily in Augusta Georgia” is in no way
claiming her domicile and citizenship is in Augusta?
However to produce the outcome desired the same
Court Judge, manipulated the statement to claim on
Pg. 3 that “Petitioners failed to plead (1) Petitioners
citizenship. In fact, as noted above, claiming
domicile are diverse is the equivalent to claiming
citizenship, (Id at Court Order App C, Pg. 3) See
Petitioners’ Amended Complaint at Pg. 3, para 2.
See also Amended Cpl., Pg.4, para 5 the Court
conveniently omits that “Petitioners’ Chaslie Lewis
and Petrice Ricks currently and temporally reside at
2740 Highpoint Road, Snellville, Georgia, 30078 and
reserved the right to modify their residences at time
of changes” is in no way of surrendering Petrice’s
domicile is North Carolina because she did return to
North Carolina after spending time in both Augusta
and Snellville. The fact that this points further
aligns itself to Petitioners ’ position as noted for a
person domicile of fixed and permanent home, the
Court again failed to address and opted out of
introducing Pg. 4, ^5 essential fact.
Petitioners objected to the Trial Court’s remedy
towards Respondents’ claims that cites “Diversity
jurisdiction is measured at time the action is filed,”
PTA-FLA. Inc, v. ZTE USA. Inc.. 844 F.3d 1299
(11th Cir. 2016) The case is misplaced and don’t
apply here because Petrice Ricks domicile of North
Carolina was never, relinquished. The Court in error
construed Petrice temporary visit to Augusta and
Snellville, Georgia contemporaneously as her domi­
cile which was and still totally false. To measure
Petrice’s domicile as permanently fixed citizen of the
State of Georgia is ignoring Petitioners’s Petrice

20

reserving the right to modified and declare her
domicile as a North Carolina citizen.” And her
returning to her residence once her mother’s affairs
and estate was dissolved. CL, a sibling to decedent
stating Petrice and Chaslie are primary in Augusta,
Georgia cannot be speculated that their domiciles
and citizenships are in Georgia. Yes, they were
primary in Augusta but no, Petrice lived with her
father in North Carolina, worked and paid taxes in
the same state and still to this date works and is a
citizen of North Carolina for the purposes of minimal
diversity. Moreover, the same is true with joined
sibling Gwen, Greg, and Charlie Lawrence Jr.
The Article III Court was supposed to rule on
jurisdiction based upon Petitioners’ allegations and
not the merits. In other words, this Court went
outside of procedure to rule on the merit of
Respondents’ three corner motion instead of four
corners affirmative defense, and failed miserably to
check Respondents meritiness motion against
Petitioners’ allegations, Zacharia v. Harbor Island
Spa Inc.. 684 F2d 199 (2d Cir. 1982) reversed a
District Court ruling as a similar fact pattern.
The 2d Cir. held:
“The jurisdiction determination is to be
made on the basis of the Petitioners’ allega­
tions, not on a decision on the merits * * * We
have allowed, however, resort to material
developed in discovery to be used to amplify
the meaning of the complaint’s allegations * * *
We have not however, held that defenses
asserted on the merits may be considered and
adjudicated on jurisdictional motions.”
21

i

The same case Circuit Court went on to cite that:
“Even if the Court interpretation of Florida
law were correct, dismissal contravenes the
rule that the existence of a valid defense does
not deprive a federal court of jurisdiction.
Petitioners argue the Court allowed an Article I
Court to illegally become involved at the pleading
stage and write an order staying discovery
establishes jurisdiction else the Court was in
violation of procedure when the Article I Court
usurped jurisdiction to give an order impeding
discovery. The damage of such disenfranchised
Petitioners from verifying if Respondents were in
fact Citizens of Georgia or whether or not they only
worked in Georgia but retained domiciles outside the
State.
Petitioners object to Court order Appx D Pg. 4
moving the Civil Procedure past the enjoined parties’
domiciles that created litigant’s minimal diversity.
The Court on Pg. 4 cites Petitioners claims of
establishing jurisdictional diversity toward minimal
diversity but yet without following more than two of
the parties had different citizenships. Petitioners
show Gwen, Greg. Charlie and Petrice citizenships
shows the Court’s erred
Petitioners object to the Judge’s order that confuses
the affirmative alleged. Respondents and Court mis­
applied Petitioners claim and used the standard for
Georgia’s wrongful death claims for power and
authority as it is relegated to the beneficiaries.
Petitioners does not dispute both Chaslie and Petrice

22

authority but advances they both vested their
authority to Christopher Lawrence by enjoining
Chris L to be the designated person on the behalf of
the beneficiaries. As such, Petitioners Chaslie and
Petrice also divested their control as being the
primary beneficiaries. Nothing in Georgia’s statutes
restricts or precludes divesting real party interest
when multiple Plaintiffs are enjoined in a lawsuit.
Georgia law versus Fed. R. of Civ, P. does not
restrict enjoined members to a cause of action
authority by designation of such power once they
have executed a lawsuit for negligence and have
been identified as such as enjoined.
Instead of addressing whether Petitioners at the
inception of a complaint stage could enjoin others
and had the rights to enjoin beneficial Petitioners
creating a real interest, the Courts and Respondents
only look to Georgia law for wrongful death and
malpractice requisites that do not apply here in the
Federal jurisdiction of this case under negligence
claims and damages
Did the Court attempt to dislodge the enjoined
parties by making them as reference not real parties
in interest? ASSN v. Lee. 446 U.S. 458, 461 (1980),
the interplay was not disputed against enjoined
parties. The Supreme Court was not asked to rule
from the Real Parties in interest or enjoining parties
via parents and siblings. In Navarro Savings Assn v.
Lee. the High Court was asked to determine whether
the trustees of a business trust may invoke the
diversity jurisdiction of the federal courts on the
basis of their own citizenship, rather than that of the
trust's beneficial shareholders. [446 U.S. 458, 459]

23

i

i

Herein this case, the beneficiaries as being
daughters of decedent exercised their rights to
include the decedent’s brothers, sisters, and Parents
due to considering family severability is never lost
when siblings are born from same parents as a
family unit
Under Note 2, Pg. 5 is also intentionally misstated
by the Judge to claim Petitioners patently made a
false claim that equates Petitioners’ case to the
merits of Negligence and damages. The Circuit
should note that Petitioners case is not based on a
Wrongful death claim nor is it based on medical
malpractice as the judge and Respondents outright
told untruths. Petitioners framed their case under
NEGLIGENCE AND DAMAGES. Pg 1.COUNT - I,
MEDICAL PROFESSIONAL NEGLIGENCE Pg. 8,
The Court attempts to write its own version of
Petitioners ’ claims is to nroduce the output dissocia­
ting the undisputed enjoined parties to the suit
Regarding Appx D, Note 1, Pg 5 relevant to the
District Court must disregard nominal or formal
parties is not the classification of the parties to the
forgoing claims. The question that must be establish
is whether the Supreme Court statement in “State
Farm Fire & Cas. Co. v. Tashire, 386 U.S. 523, 530 531 (1967) included all parties named in the case
that signed onto the complaint or as claimed by the
court in moving the dial to state real party in
interest in a federal case. In State Farm Fire & Cas.
Co. v. Tashire. 386 U.S. 523, 530 -531 (1967) the
Supreme Court held:
“That the diversity of citizenship statute
diversity; where co­
required complete
i

24

citizens appeared on both sides of a dispute,
jurisdiction was lost. But Chief Justice
Marshall there purported to construe only the
words of the act of Congress, not the
Constitution itself. And in a variety of contexts
this Court and the lower courts have
concluded that Article III poses no obstacle to
the legislative extension of federal jurisdiction,
founded on diversity, so long as any two adverse
parties are not co-citizens. Accordingly, we
conclude that the present case is properly in
the federal courts.”
Does the phraseology in “so long as any two
adverse parties are not co-citizens” defines a
specific party; and if so, can the Court exclude a
party from being a citizen of another state if its uses
real party in interest language not ever mentioned in
the Supreme Court findings in State Farm Fire &
Cos. Co. v. Tashire. 386 U.S. 523, 530 -531 (1967).
The other issue of contention is the does the “so
long as any two adverse parties are not cocitizen” excludes enjoined parties as allowed and
unabated as inn this case where the beneficiaries did
include.
Moreover, jurisdiction is met when Respondents
have not disputed Petitioners enjoining Parties that
have citizenship outside the State of Georgia?
Moreover subject matter jurisdiction is met when
one party domicile and citizen is of another state as
such with Petrice, Gwen, Greg, and Charlie.
Because the Court wanted to leverage its decision by
not recognizing Decedent’s kin ENJOINED outside
the state of Georgia and those bearing domicile and
25

citizenship from California, Phoenix, North Carolina
would in fact meet the threshold requirements under
Interpleader Act, the 11th Circuit cited on (Appx B,
Pg. 3). The Lower courts excluded and made them
appear in the record as not real party in interest to a
misaligned claim of wrongful death and malpractice
pretext charge.

i

Time after time Georgia Courts’ have held where the
language of a statute is plain or law, the Courts need
not add their interpretation to draw a conclusion.
Here in the forgoing case the Court took the position
that primary in Augusta represent of Petrice and
Chaslie residence in Augusta is not support be fact.
In fact, this case shows at the onset, the same Court
put on hold the case due to sending Petitioners
instructions that all parties to the suit must
therefore signed the lawsuit. In other words, even
before the Respondents attempted to displace
Petitioners other than Petrice and Chaslie, this
Court recognized all parties that signed the
complaint were parties to the lawsuit and complaint
at law. No request was made for an indefinite
statement. Now, suddenly the District and Appeals
Courts went in reverse requiring both sua sponte
and de novo implications to review as an erred of the
Courts.

E. DISPOSITIVE MOTIONS RESPONSIVE
ARGUMENTS FROM NONMOVANT
SUPPOSED TO BE ACCEPT AS TRUE
Petitioners filed a reply to Respondents’ untimely
response in violations of Fed, R. Civ. P. 6(6)(d) by

26

failing to timely serve Petitioners with a copy of an
answer within 3 days of their erroneous filing with
the Clerk of Court allegedly on December 4, 2017.
Specifically, Gwen Lawrence Harrison, Gregory
Lawrence, Charlie Lawrence Jr. and Petrice Ricks
all domiciles are in different states as Petitioners
facts show as enjoined. See State Farm Fire & Cas.
Co. v. Tashire. 386 U.S. 523, 530 -531 (1967) where
the High Court articulated essentials precedent that
should be followed consistently that the
Constitutional grants of diversity of citizenship
instead of the statutory limits or language. In State
Farm Fire & Cas. Co. v. Tashire. 386 U.S. 523, 530 531 (1967)
The Court’s order seeks to ignore 4 separate parties
that have different domiciles. So, when the Court
claims on (Appx D, Pg. 11, f 2).that Petition- ers
failed their burden, Judge Hall erred in his decision
to look only from complete diversity has been
rendered antiquated against the Interpleader Act 28
U.S.C. § 133
The Court need not continue in ignorance of claiming
because some Petitioners are Georgia citizens as
with the Respondents, is still misplaced because two
or more of the Petitioners have different domicile
which would meet the standard requirements
surpassing the old dysfunctional law that abridged
litigants rights and access to the court on a process
technicality such as Strawbridse v. Curtiss, 7
U.S.267, 2 L. Ed. 435 (1806) antiquated position
against the two claimant/ Petitioners rule for
minimal diversity. Moreover, two and more adverse
27

parties exist in the complaint and amended
complaint and by having domiciles in different states
as California, Arizona, and North Carolina do meet
minimal standing. The Court relying of the notion
that citizenship must be alleged is rubbish and
nonsensical when the judge previously cited that
domicile is the equivalent to citizenship, (Appx D 8,

Respondents’ and Courts are attempting to isolates
Petitioners by incorrectly referencing “real parties in
interest” is misplaced. There is no doubt the as listed
parties enjoined all signed on the lawsuit have
interest as a family of direct relation through the
same mother, father, and sibling connection whereby
the Decedent does not lose her connection for the
purposes of comparative association. CL’s sister
death fully comports to Georgia law for modified
comparative negligence laws instead of Respondents
attempt to switch Petitioners’ claims to “Georgia’s
wrongful death statute and the Appeals Court using
malpractice. Petitioners also asserted claims under '
“Medical Professional Negligence, Gross Negligence
and causation of injuries transferred to direct
elements of injuries causing Decedent’s death; Appx
F para 15, para 71, para 81, and para 89.
REASON FOR GRANTING THE PETITION
11th Circuit usage of Barbour u. Haley, 471 F. 3d
1222, 1225 (11th Cir. 2006) and reviewed for clear
error a District Court’s factual findings concerning
jurisdiction, Bryant v. Rich, 530 F. 3d 1368, 1377
(11th Cir. 2008) are misplaced due to the 11th
Circuit opined that Bryant “did not allege, in any of

28

!

his pleadings, the citizenship of the law firm or its
members.” Here in Petitioners claims, they pointed
out that minimal diversity existed via Petrice Ricks
and other enjoined plaintiffs as siblings’ domiciles
were in other states different from Respondent’s.
Because the Circuit Court appears to place all Pro se
complaints in judicial stereotype of lacking subjectmatter jurisdiction, the opinions deny equal access to
the court and allow for the subject matter erred
claims almost never goes unchallenged. This appears
to be the effective tool of impeding pro se cases,
while many cases would have been decided for pro
ses on the merits of their claims and material facts
of support. See Charlette Jones vs. Sterling
Jewelers, Reeves Reeves vs. Gwinnett County Board
of Education, Lawrence vs. Bank of America, and the
list goes on.
Supreme Court jurisdiction is evoked on the basis
that the Circuit Court Order (App B, Pg., 2) selfimplodes by claims that “District Courts have
subject matter jurisdiction over civil actions between
citizens of different states or between citizens of a
state of a state and of a foreign country, where the
mount in controversy exceeds $75,000, 28 U.S.C.
§ 1332(a)” is indeed hypocrisy when facts to the
record clearly show Petrice Ricks is a citizen of a
foreign state of North Carolina, her domicile and
citizenship state, the claims presented exceed the
threshold requirement as listed herein and
standards set forth that the Court’s Opinion on
(Appx B, Pg. 2, If)

29

CONCLUSION
WHEREFORE Petitioners concludes the case
should be remanded to District Court. Petitioners’
also have no problems in the Supreme Court
allowing Respondents to answer why they failed to
provide reasonable care to Decedent on two separate
visits to University Hospital that went unanswered.
Decedent’s entire family has the right to know why
Respondents failed to treat properly their sibling, a
daughter, mother, and sister, when all evidence
shows delta changes and blood pressures being both
high and low at different presented a comprised
system under distress and yet, University told this
family that the Decedent was normal on Friday,
September 26, 2015 with a BP 91/64 mmHg is an
lethargic status for a diabetic. See Appx F Pg. 49,
^193 of Petitioners Exhibit 11, and allowed Decedent
to go home under those abnormal conditions.
Petitioners want to know and have no problems in
this Supreme at least allowing the Respondents to
answer each separate claim in Appx F instead of
telling this grieving family unit that this Court
cannot decide or hear the issues that cause
Decedent’s death. When life is taken justifiably or
not, an unjust reason from the responsible parties is
at the question of accounting why. In this case,
Respondents don’t want to account or answer for
this death. Petitioners to this cause of action ask
the Court and Clerks to consider f it was your family
member and to vacate the order for allowing an
Article I Court jurisdiction in an Article III Court
affecting Article III Court. Clarify and identify the
“so long as any two adverse parties are not co­
citizens” condition that would exact enjoined

30

;

Petitioners to a lawsuit by meaning and
language if the so as long remained in a federal
jurisdiction similar to the dissimilarities as process
of service within the federal courts versus state.
Christopher Lawrence, (Enjoined Party to suit, and
as designated on the behalf of Petitioners by next of
Kin authority)
Christopher Lawrence
2974 Jenki^Drive
Snellville, Georgia 30078
(224) 339 - 3600

December 6, 2019

:
i

!

<

31

i

!

